                                                            OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 1 of 5) Version 5.0a
                  Reporting OIG: Amtrak ‐ OIG
              Month Ending Date: 06/30/2010

                                                            Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau        Recovery Act TAFS      Award Type        US Indicator       Total Obligations        Total Gross       Direct or         Ordering TAFS
No.                                                                                                                       Outlays       Reimbursable
      Amtrak ‐ OIG               (69‐0724 2009 \       Formula and Block       Y ‐ US              $434,511              $420,805 
                                 2013) Amtrak ‐ OIG ‐       Grant
  1                              Recovery Act
  2
  3
  4
  5
  6
  7
  8

                                                Non-Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau          FY 2009 Non‐        Total FY 2009      Total FY 2009    FY 2010 Non‐Recovery      Total FY 2010    Total FY 2010 
No.                                Recovery Act TAFS      Obligations       Gross Outlays          Act TAFS             Obligations     Gross Outlays
  1 Amtrak ‐ OIG                 Amtrak - OIG                  $228,694           $228,465 Amtrak - OIG                      $414,912          $355,293
  2
  3
  4
  5
  6
  7
  8




                                                                                                               Copy of OIG Monthly Reporting Template 063010.xls Page 1
                                                                                OIG Recovery Act Monthly Report


                                     Monthly Update Report Data (sheet 2 of 5) Version 5.0a
                                            Reporting OIG: Amtrak ‐ OIG

                                       Month Ending Date: 6/30/2010


                                                                                                   Fiscal Year 2009
                                                                                                                  Monetary Results ‐ Audits, Inspections, 
                                                                     Monetary Results ‐Investigations
                                                                                                                               Reviews* 

                                                                                                                 Questioned Costs (FY 
                                                                       Recoveries (FY 09):               $0.00                                       $0.00
                                                                                                                                 09):


                                                                                                                   Unsupported Costs 
                                                            Forefeitures/Seizures (FY 09):               $0.00                                       $0.00
                                                                                                                             (FY 09):

                                                                                                                   Recommendations 
                                                               Estimated Savings (FY 09):                $0.00       for Better Use of               $0.00
                                                                                                                        Funds (FY 09):



                                                                                                   Fiscal Year 2010
                                                                                                                  Monetary Results ‐ Audits, Inspections, 
                                                                     Monetary Results ‐Investigations
                                                                                                                               Reviews* 

                                                                                                                 Questioned Costs (FY 
                                                                       Recoveries (FY 10):               $0.00                                       $0.00
                                                                                                                                 10):


                                                                                                                   Unsupported Costs 
                                                            Forefeitures/Seizures (FY 10):               $0.00                                       $0.00
                                                                                                                             (FY 10):

                                                                                                                   Recommendations 
                                                               Estimated Savings (FY 10):                $0.00       for Better Use of               $0.00
                                                                                                                        Funds (FY 10):



                                                                                            Cumulative Since 2/17/2009
                                                                                                                Monetary Results ‐ Audits, Inspections, 
                                                                     Monetary Results ‐Investigations
                                                                                                                             Reviews* 

                                                                                                                      Questioned Costs 
                                                                 Recoveries (cumulative):       $0.00                                       $0.00 
                                                                                                                         (cumulative):


                                                                     Forefeitures/Seizures                         Unsupported Costs 
                                                                                                $0.00                                       $0.00 
                                                                             (cumulative):                              (cumulative):


                                                                                                                   Recommendations 
                                                                        Estimated Savings 
                                                                                                $0.00                for Better Use of      $0.00 
                                                                             (cumulative):
                                                                                                                  Funds (cumulative):



* These data include Federal Audits, Inspections, and Reviews only                                                                                           Copy of OIG Monthly Reporting Template 063010.xls Page 2
                                                                                                              OIG Recovery Act Monthly Report


Monthly Update Report Data (sheet 3 of 5) Version 5.0a
        Reporting OIG: Amtrak ‐ OIG
    Month Ending Date: 6/30/2010

                            FTE Working on Recovery
                                                                                                                                                         Testimonies:
      Fiscal Year              2009            2010              Cumulative
       Newly Hired FTE 
                              0.38               3.52                3.90                                                                        Provided (monthly):        0
         (cumulative):

FTE Funded by Recovery 
                              0.38               3.52                3.90                                                                      Provided (cumulative):       1
 Act Funds (cumulative):

     FTE Not Funded by 
    Recovery Act Funds        0.74               2.86                3.60
          (cumulative):


                                                                                                                                             Audits / Inspections / Evaluations / 
              Complaints                          Whistleblower Reprisal Allegations                         Investigations                                                                Training / Outreach
                                                                                                                                                           Reviews
             Monthly Data                                    Monthly Data                                    Monthly Data                               Monthly Data                          Monthly Data

                                                                                                                                                                                           Training Sessions 
              Received:         0                                       Received:       0              Opened (this month):        0           Initiated (this month):      0                                    0
                                                                                                                                                                                                  Provided:

                                                                                                     Active (as of the end of                In Process (as of the end 
                                                                       Accepted:        0                                          2                                        4           Individuals Trained:     0
                                                                                                                 the month):                           of the month):
                                                                                                                                                     Completed Final 
                                                                                                                                                                                           Hours of Training 
                                                                                                           Pending Decision:       0                  Published Work        0                                    0
                                                                                                                                                                                                  Provided:
                                                                                                                                                             Products:
                                                                                                                                                     Priority Interim 
                                                                                                                                                                                          Outreach Sessions 
                                                                                                      Closed without Action:       0                 Published Work         0                                    0
                                                                                                                                                                                                Conducted:
                                                                                                                                                            Products:
                                                                                                                                                   Unpublished Work 
                                                                                                       Prosecution Declined:       0                                        0
                                                                                                                                                          Products*:

                                                                                                    Referred for Alternative 
                                                                                                                                   0                     QCRs Issued:       0
                                                                                                                 Resolution:

                                                                                                              Convictions, 
                                                                                                       Settlements, Pleas,      0
                                                                                                               Judgments:
   Cumulative Data Since 2/17/2009                 Cumulative Data Since 2/17/2009                 Cumulative Data Since 2/17/2009           Cumulative Data Since 2/17/2009         Cumulative Data Since 2/17/2009
                                                                                                                                                     Completed Final 
                                                                                                                                                                                           Training Sessions 
              Received:         0                                       Received:       0             Closed without Action:       0                 Published Work         1                                    0
                                                                                                                                                                                                  Provided:
                                                                                                                                                           Products:
                                                                                                                                                      Priority Interim 
                                                                       Accepted:        0              Prosecution Declined:       0                  Published Work        0            Individuals Trained:    0
                                                                                                                                                             Products:

                                                                                                    Referred for Alternative                       Unpublished Work                        Hours of Training 
                                                                                                                                   0                                        3                                    0
                                                                                                                 Resolution:                              Products*:                              Provided:

                                                                                                                Convictions, 
                                                                                                                                                                                          Outreach Sessions 
                                                                                                         Settlements, Pleas,       0                     QCRs Issued:       0                                    6
                                                                                                                                                                                                Conducted:
                                                                                                                 Judgments:

                                                                                                          Cumulative Total:        0               Cumulative Total:        4



              *These work products were not published because they contain proprietary or other sensitive information that cannot be made available to the public.                                        Copy of OIG Monthly Reporting Template 063010.xls Page 3
                                                OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 4 of 5) Version 5.0a
      Reporting OIG: Amtrak ‐ OIG
  Month Ending Date: 06/30/2010

       No.                      OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)
        1            Continued review of Amtrak's Engineering's Dept in Managing JPM contract and ARRA projects
        2            Preparing reports for reviews
        3
        4
        5
        6
        7
        8
        9
       10

       No.                             OTHER TYPES OF SIGNIFICANT ACTIVITIES (Planned for Next Three Months)
        1            Review Police and Security Dept's management of ARRA
        2            Review of Amtrak's Plan to Bring Stations into ADA Compliance
        3
        4
        5
        6
        7
        8
        9
       10




                                                                                      Copy of OIG Monthly Reporting Template 063010.xls Page 4
                                                          OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 5 of 5) Version 5.0a
  Reporting OIG: Amtrak ‐ OIG
   Month Ending 06/30/2010

                                                                      TRAINING ACTIVITIES
                                                                                                                                            Hours of
                                                                                                                 Length of                  Training
                                                Target                            Training Location   Date of                 Number of                    Cost of
     No.               Type of Training                       Title of Training                                   Training                 Provided
                                               Audience                              (City, State)    Training               Participants                  Training
                                                                                                                  (hours)                   (length x
                                                                                                                                          participants)
       1                                                                                                                                               0
       2                                                                                                                                               0
       3                                                                                                                                               0
       4                                                                                                                                               0
       5                                                                                                                                               0
       6                                                                                                                                               0
       7                                                                                                                                               0
       8                                                                                                                                               0
       9                                                                                                                                               0
      10                                                                                                                                               0
      11                                                                                                                                               0
      12                                                                                                                                               0
      13                                                                                                                                               0
      14                                                                                                                                               0
      15                                                                                                                                               0
                                                                                                                  TOTAL                 0              0

                                            OUTREACH ACTIVITIES
                                               Number of
                                             Organizations                           Outreach
                    Organization to which                    Description of                            Date of
     No.                                     Represented at                        Location (City,
                     Outreach Provided                          Outreach                              Outreach
                                               Outreach                                State)
                                                Session
       1
       2
       3
       4
       5
       6
       7
       8
       9
      10


                                                                                                        Copy of OIG Monthly Reporting Template 063010.xls Page 5
